BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in State of
Louisiana v. Tazin Ardell Hill, was sent via Three Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Three Day service and e-mail to the following
parties listed below, this 10th day of May, 2021:
Richard John Bourke
Louisiana Capital Assistance Center
636 Baronne Street
New Orleans, LA 70113
(504) 258-2915
rbour ke@thejusticecenter.org

Counsel for Respondent
Elizabeth B. Murrill
Solicitor General
Counsel of Record
Louisiana Department of Justice
1885 N. Third Street
Baton Rouge, LA 70802
(225) 326-6766
m urrille@ag.louisiana.gov

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 10, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

(I~{); /(J/ Ju 2r /
(j(fly fl· /JL~
I

Notary P~blic

'-..)

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commiaaion Expires
F.-bruary 14, 2023

